IN THE SUPREME COURT OF THE UNITED STATES

JULIAN MONDRAGON-HERNANDEZ,
JOSE LUIS HERNANDEZ,
Petitioners,
V.

UNITED STATES OF AMERICA,
Respondent.

PETITION FORA WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioners,
Julian Mondragon-Hernandez, and Jose Luis Hernandez ask for leave to file a
Petition for Writ of Certiorari to the U.S. Court of Appeals for the Ninth Circuit
without pre-payment of fees or costs and to proceed in form a pa uperis. The
Petitioners were represented by counsel appointed pursuant to 18 U.S.C. ยง 3006A in
the district court and on appeal to the Court of Appeals for the Ninth Circuit.
Respectfully submitted,

November 24, 2020

KAifRTZLERf~

Federal Defenderi6f San Diego, Inc.
225 Broadway, Suite 900
San Diego, California 92101
Telephone: (619) 234-8467
Attorneys for Petitioner

